1301 Pennsylvania Avenue NW
Washington, DC 20004

Paul D. Clement
To Call Writer Directly:
(202) 389-5000
paul.clement@kirkland.com

(202) 389-5000

Facsimile:
(202) 389-5200

www.kirkland.com

December 22, 2020

Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543
Re: Alaska Native Village Corporation Association et al.
v. Confederated Tribes of the Chehalis Reservation et al., No. 20-544
Dear Mr. Harris:
On behalf of petitioners in the above-referenced case, I am writing to waive the 14-day
waiting period under Rule 15.5 and to respectfully request that this case be set for distribution on
December 23, 2020. Petitioners anticipate filing their reply brief on December 23, but in the event
that brief is not received by the December 23rd distribution, petitioners request that the case be
distributed without it.
Sincerely,

Paul D. Clement
Counsel for Petitioners

cc:

Beijing

Boston

Counsel for Respondents
Counsel for the United States

Chicago

Hong Kong

Houston

London

Los Angeles

Munich

New York

Palo Alto

San Francisco

Shanghai

